           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


      BENEFITS PAYABLE TO CHILD
    BENEFICIARIES WHO NO LONGER
    NEED REPRESENTATIVE PAYEES


     August 2010   A-09-09-29116




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                           SOCIAL SECURITY
MEMORANDUM

Date:   August 20, 2010                                                           Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Benefits Payable to Child Beneficiaries Who No Longer Need Representative Payees
        (A-09-09-29116)


        OBJECTIVE

        Our objective was to determine whether the Social Security Administration (SSA) had
        adequate controls to ensure that child beneficiaries whose benefits were withheld
        because they did not have representative payees were paid when they attained age 18.

        BACKGROUND

        SSA administers the Old-Age, Survivors and Disability Insurance program under Title II
        of the Social Security Act. This program provides monthly benefits to retired and
        disabled workers, including their dependents and survivors. 1

        Some individuals cannot manage or direct the management of their finances because of
        their youth or mental and/or physical impairments. SSA appoints representative payees
        to receive and manage these beneficiaries’ payments. 2 When circumstances change or
        suggest a representative payee may no longer be suitable, SSA may suspend benefits
        and initiate a search for a new representative payee. SSA may also pay beneficiaries
        directly while it is searching for a new representative payee, unless it would cause the
        beneficiary substantial harm. 3 In addition, under certain circumstances, child
        beneficiaries age 15 to 17 can be paid directly. 4




        1
            The Social Security Act § 201 et seq., 42 United States Code § 401 et seq.
        2
            SSA, Program Operations Manual System (POMS), GN 00502.001.A.
        3
            SSA, POMS, GN 00504.110.
        4
            SSA, POMS, GN 00502.070.A.1.
Page 2 - The Commissioner


However, SSA cannot make direct payments to child beneficiaries under age 15 unless
they have been legally emancipated. 5 Finally, upon attaining age 18, unless direct
payment is prohibited for other reasons, beneficiaries are presumed to be legally
competent adults 6 and no longer require representative payees solely based on their
age.

To ensure SSA appoints representative payees timely, systems alerts are generated to
SSA field offices for beneficiaries who have been suspended pending the selection of a
representative payee. When these alerts are generated and a representative payee
cannot be found, field office staff should initiate direct payment to beneficiaries unless
the beneficiary is legally incompetent, is under age 15 and not legally emancipated, 7 or
has a drug addiction or alcoholism condition and direct payment is determined to be
inappropriate. 8 Alerts are generated to field offices each month until benefits are
reinstated. 9

We identified 13,739 previously entitled child beneficiaries over age 18 who had past
due benefits that were withheld pending the selection of a representative payee. When
these child beneficiaries attained age 18 and therefore were presumed capable of
managing their own benefits, SSA should have paid the withheld benefits directly unless
it had information that the beneficiaries had impairments that prevented them from
managing their benefits. 10

RESULTS OF REVIEW
SSA needed to improve controls to ensure child beneficiaries who attained age 18 were
paid benefits that had been previously withheld pending the selection of a
representative payee. Based on a random sample of 50 beneficiaries, we found SSA
did not pay an estimated 13,464 beneficiaries approximately $31.2 million in withheld
benefits (see Appendix C). We also found that, when SSA suspended their benefits,
40 of the 50 beneficiaries were age 15 to 17 and therefore might have been eligible for
direct payment.

Generally, these errors occurred because SSA did not generate a systems alert to
identify beneficiaries who should have been paid withheld benefits when they attained



5
    SSA, POMS, GN 00502.001 A, GN 00502.010 and GN 00502.070 A.
6
    SSA, POMS, GN 00502.020 A.
7
    GN 00502.070 A.
8
    SSA, POMS, GN 00504.105 A.2 and GN 00502.010.
9
    SSA, POMS, GN 00504.150 B.
10
     SSA, POMS, GN 00504.110 A and GN 00502.020.
Page 3 - The Commissioner


age 18 or SSA employees did not take corrective actions to pay withheld benefits when
processing student awards when a child attained age 18. 11

WITHHELD BENEFITS WERE NOT PAID

SSA did not pay 49 (98 percent) of the 50 beneficiaries in our sample whose benefits
were suspended pending the selection of a representative payee. Specifically, we
found that
•     40 were not paid their withheld benefits when their benefits terminated at age 18;
•     3 had their benefits terminated when the wage earner’s disability benefits ceased;
      however, they were not paid their withheld benefits when they attained age 18; and
•     6 were not paid their withheld benefits when they were awarded student benefits at
      age 18.

Our sample results are summarized below.


                Benefits Payable to Child Beneficiaires Who
                 No Longer Need Representative Payees
                                                43 Should Have Been
                                                    Paid at Age 18
                                                        (86%)




            6 Should Have Been
            Paid When Student                  1 Properly Paid
             Benefits Aw arded                      (2%)
                    (12%)



Withheld Benefits Were Not Paid When Children Attained 18

Generally, child beneficiaries may receive benefits until they marry or attain age 18.
However, child beneficiaries who are full-time students at an elementary or secondary
school or who are determined to be disabled may receive benefits beyond age 18. 12


11
   Child beneficiaries may, subject to certain conditions, receive benefits beyond age 18 if they are
full-time students at an elementary or secondary school. SSA, POMS, RS 00205.001 A.
12
     SSA POMS, RS 00203.001 A.1 and RS 00203.035.
Page 4 - The Commissioner


According to SSA policy, benefits can be suspended for a maximum of 1 month while
SSA is searching for a representative payee if direct payment to an incapable
beneficiary would cause the beneficiary substantial harm. 13 However, the 1-month
restriction does not apply to beneficiaries who are legally incompetent, under age 15, or
who have a drug addiction or alcoholism condition. 14 SSA policy states that the
representative payee issue should be resolved as quickly as possible for those
beneficiaries who are legally incompetent or under age 15. 15 Monthly alerts are
generated to SSA field offices for beneficiaries who have been in suspense for
4 months. 16 When the alert is generated and a representative payee cannot be found,
field offices should initiate direct payment to the beneficiary unless the beneficiary is
legally incompetent, is under age 15, or has a drug addiction or alcoholism condition
and is determined incapable of receiving benefits. 17 However, once a beneficiary is no
longer suspended pending the selection of a representative payee, alerts are no longer
generated. 18 In the case of child beneficiaries, there is no systems alert to ensure that
previously withheld benefits are paid when the child attains age 18 and benefits are
terminated.

Our review disclosed that 40 (80 percent) of the 50 children in our sample had their
benefits terminated when they attained age 18, and 3 (6 percent) had their benefits
terminated before age 18. These 43 beneficiaries were not paid $108,746 in previously
withheld benefits. Generally, this occurred because systems alerts were not generated
or SSA staff did not take any corrective actions to ensure the withheld benefits were
paid directly to the beneficiaries, as required.

For example, in March 1999, SSA suspended a child’s benefits pending the selection of
a representative payee. In July 2004, SSA automatically terminated the child’s benefits
when he attained age 18. Although the beneficiary was age 18 and presumed to be
capable, SSA did not pay $29,678 in previously withheld benefits.

Withheld Benefits Were Not Paid When Student Benefits Were Awarded at Age 18

Generally, payments to child beneficiaries terminate when they attain age 18. However,
SSA awards student benefits to child beneficiaries beyond age 18 who are full-time
students at an elementary or secondary school. Additionally, to receive student

13
     SSA, POMS, GN 00504.105 A.2.a.
14
  SSA, POMS, GN 00504.105.A.2.a-c. Substantial harm is presumed to exist for beneficiaries who are
legally incompetent or under age 15.
15
     SSA, POMS, GN 00504.105 A.2.b.
16
     SSA, POMS, SM 03020.150 D.1.
17
     SSA, POMS, GN 00504.105 A.2 and GN 00502.010.
18
     SSA, POMS, GN 00504.150 B.
Page 5 - The Commissioner


benefits, the student must have a school official certify his or her attendance. 19 After
full-time attendance has been certified, any benefits due must be paid directly to the
student unless direct payment is prohibited for other reasons. 20

Our review found that for 6 (12 percent) of the 50 beneficiaries in our sample, SSA
awarded student benefits when the child attained age 18, made them their own payee,
and paid their current benefits. However, SSA did not pay the previously withheld
benefits. This occurred because SSA employees did not properly review the
beneficiaries’ payment record and take corrective actions to pay the previously withheld
benefits. As a result, the six beneficiaries were not paid $4,627.

For example, in October 1996, SSA suspended a child’s benefits pending selection of a
representative payee. In February 1997, SSA awarded the child student benefits at age
18, made him his own payee, and paid current benefits. However, SSA did not pay the
previously withheld benefits of $1,376.

CONCLUSIONS AND RECOMMENDATIONS
SSA did not always ensure child beneficiaries who attained age 18 were paid benefits
that had been previously withheld pending the selection of a representative payee.
Based on a random sample of 50 child beneficiaries, we determined that SSA should
have taken corrective actions to pay approximately $31.2 million in withheld benefits to
an estimated 13,464 child beneficiaries (see Appendix C). These errors generally
occurred because SSA did not generate a systems alert to identify beneficiaries who
should be paid withheld benefits when they attained age 18 or SSA employees did not
take corrective actions to pay withheld benefits when processing student awards when
a child attained age 18. Therefore, we recommend that SSA:

1. Take corrective action to resolve the benefits withheld from the 49 beneficiaries
   identified by our audit.

2. Identify and take corrective action on the population of child beneficiaries over age
   18 whose benefits were withheld pending the selection of a representative payee.

3. Improve controls to ensure that child beneficiaries who are capable of managing
   their benefits are paid any benefits that were withheld pending the selection of a
   representative payee.

4. Remind SSA employees to review beneficiaries’ payment records when awarding
   student benefits and to take corrective actions to pay previously withheld benefits.




19
     SSA, POMS, RS 00205.400 B.
20
     SSA, POMS, GN 00502.020 A.
Page 6 - The Commissioner


AGENCY COMMENTS
SSA agreed with all our recommendations. The Agency’s comments are included in
Appendix D.

OTHER MATTERS
Generally, benefits should not be suspended while SSA is searching for a new
representative payee. 21 Instead, SSA must make direct payment to a beneficiary,
unless the beneficiary is legally incompetent, is under age 15 (unless they have been
legally emancipated), or has a drug addiction or alcoholism condition and is determined
incapable of receiving benefits. 22 However, SSA policy states that child beneficiaries
age 15 to 17 may be considered capable of managing their benefits. This may occur for
beneficiaries who are

     entitled to benefits based on their own earnings;
     on active duty in the armed forces;
     living alone and supporting themselves;
     parents who filed for their own or their child’s benefits and have experience in
      handling finances;
     demonstrated the ability to handle finances and no qualified representative payee is
      available; or
     within 7 months of attaining age 18 and are initially filing an application for benefits. 23

We found that 40 child beneficiaries in our sample were age 15 to 17 when their
benefits were initially suspended pending the selection of a representative payee.
However, we found no evidence that SSA determined whether they were capable of
managing their benefits.




                                                     Patrick P. O’Carroll, Jr.




21
     SSA, POMS, GN 00504.150 A and GN 00504.105 A.2.a and b.
22
     SSA, POMS, GN 00504.105 A.2 and GN 00502.010.
23
     20 C.F.R. §404.2010 and SSA, POMS, GN 00502.070 A.1 and B.2.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology and Results
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                          Appendix A

Acronyms
MBR    Master Beneficiary Record
OIG    Office of the Inspector General
POMS   Program Operations Manual System
SSA    Social Security Administration
                                                                      Appendix B

Scope and Methodology
In May 2009, we obtained a data extract from the Social Security Administration’s (SSA)
Master Beneficiary Record (MBR). From this extract, we identified a population of
13,739 child beneficiaries between ages 18 and 40 whose MBR contained a history of
suspense for the development of a representative payee. From this population, we
randomly selected a sample of 50 beneficiaries for review.

To accomplish our objective, we

•   reviewed applicable Federal laws and regulations as well as SSA’s Program
    Operations Manual System and other policy memorandums;

•   interviewed SSA employees from the Western Program Service Center, San Rafael
    Field Office, and Office of Income Security Programs; and

•   reviewed queries from SSA’s MBR and (when necessary) the Payment History
    Update System for each sample item.

We determined the computer-processed data from the MBR were sufficiently reliable for
our intended use. We conducted tests to determine the completeness and accuracy of
the data. These tests allowed us to assess the reliability of the data and achieve our
audit objectives.

We evaluated the adequacy of SSA’s controls to ensure child beneficiaries who attained
age 18 were paid benefits that had been previously withheld pending the selection of a
representative payee. The amounts reported represent the total benefit payments
withheld from the child beneficiaries after their benefits were suspended for
representative payee development. For our sample, benefits withheld were for the
period June 1978 through July 2008.

We performed our audit in Richmond, California, between October 2009 and
January 2010. The entities reviewed were the Offices of the Deputy Commissioners for
Operations and Systems.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.
                                                                                Appendix C

Sampling Methodology and Results
From the Social Security Administration’s (SSA) Master Beneficiary Record, we
identified 13,739 previously entitled child beneficiaries between ages 18 and 40. As
child beneficiaries, these individuals had their benefits withheld because SSA’s
selection of a representative payee was pending. These child beneficiaries were of an
age to be presumed capable. Therefore, SSA should have paid their withheld benefits.
We randomly selected a sample of 50 beneficiaries and reviewed their payment records
to determine whether SSA paid the children the benefits that had been withheld. If the
beneficiary had not been paid the benefits, we calculated the number of months of
suspended benefits and calculated the amount of benefits payable.

Of the 50 child beneficiaries in our sample, we found that SSA did not pay
49 beneficiaries $113,423 in benefits that had been withheld. Projecting these results to
our population of 13,739 beneficiaries, we estimate SSA had not taken corrective
actions to pay approximately $31.2 million in withheld benefits to an estimated
13,464 child beneficiaries. The following tables provide the details of our sample results
and statistical projections.

Table 1 – Population and Sample Size

               Description                                           Number of Records
 Population Size                                                          13,739
 Sample Size                                                                  50

Table 2 – Statistical Projections

                                                           Number                Withheld
               Description                                of Records             Benefits
 Sample Results                                                 49                 $113,423
 Point Estimate                                             13,464              $31,166,262
 Projection - Lower Limit                                   12,486              $16,043,313
 Projection - Upper Limit                                   13,724              $46,289,211
Note: All statistical projections are at the 90-percent confidence level
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      August 02, 2010                                                         Refer To: S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      James A. Winn       /s/
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, "Benefits Payable to Child Beneficiaries
           Who No Longer Need Representative Payees" (A-09-09-29116)—INFORMATION
           Thank you for the opportunity to review and comment on the draft report. We appreciate
           OIG’s efforts in conducting this review. Attached is our response to the report findings and
           recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment




                                                          D-1
Office of the Inspector General (OIG) Draft Report, "Benefits Payable to Child
Beneficiaries Who No Longer Need Representative Payees" (A-09-09-29116)


Thank you for the opportunity to review the subject report. Please see our comments below on
your four recommendations and the issues included in “Other Matters.” We also offer a number
of technical comments to enhance the accuracy of the report.

Recommendation 1

Take corrective action to resolve the benefits withheld from the 49 beneficiaries identified by our
audit.

Response

We agree. Please provide us with the 49 cases, and we will investigate each one. Where
appropriate, we will take corrective actions and issue payments to beneficiaries.

Recommendation 2

Identify and take corrective action on the population of child beneficiaries over age 18 whose
benefits were withheld pending the selection of a representative payee.

Response

We agree. You identified 13,739 cases where we withheld benefits. You estimate we should
have already paid 98 percent or 13,464 of these beneficiaries. Your estimate notwithstanding,
we must review all 13,739 cases and assess each one individually. This will take some time, but
we hope to complete the review by the end of the calendar year. We will first work the 49 cases
described under Recommendation 1.

Recommendation 3

Improve controls to ensure that child beneficiaries who are capable of managing their benefits
are paid any benefits that were withheld pending the selection of a representative payee.

Response

We agree. While we already have an automated system in place to identify these cases, we will
issue a policy reminder and instruct our employees to take appropriate actions in future cases of
this type to determine if we may directly pay child beneficiaries who are ages 15 to 17. We will
emphasize that employees must maintain proper documentation for these decisions, and we will
instruct employees to change suspension status in the system to “whereabouts unknown” when
they are unsuccessful in locating a beneficiary.




                                               D-2
Recommendation 4

Remind SSA employees to review beneficiaries’ payment records when awarding student
benefits and to take corrective actions to pay previously withheld benefits.

Response

We agree. We will include this instruction in the policy reminder described in
recommendation 3.

Other Matters

In this section you say:

“We found that 40 of the child beneficiaries in our sample were age 15 to 17 when their benefits
were initially suspended pending the selection of a representative payee. However, we found no
evidence that SSA determined whether they were capable of managing their benefits.”

Comment:

This relates to your third recommendation. When we issue the policy reminder described above
in our response to recommendation 3, we will include information on the policy regarding direct
payment to minors age 15 to 17.




[SSA also provided technical comments that have been addressed, where appropriate,
in this report.]




                                              D-3
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division

   Joseph Robleto, Audit Manager

Acknowledgments

In addition to those named above:

   Regina Finley, Senior Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-09-09-29116.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
